                     America the Beautiful


    FEDERAL LABOR RELATIONS AUTHORITY
               OFFICE OF INSPECTOR GENERAL


                     37th SEMIANNUAL REPORT
                         TO THE CONGRESS




                        October 1, 2006
                            through
                        March 31, 2007

Date Issued: April 10, 2007
                           EXECUTIVE SUMMARY
This is the 37th Semi-Annual report issued by the Office of the Inspector General (OIG)
at the Federal Labor Relations Authority (FLRA). This report, submitted pursuant to
section 5 of the Inspector General Act, summarizes the major activities and
accomplishments of the FLRA Inspector General for the period of October 1, 2006 to
March 31, 2007.

During this reporting period, the FLRA Office of the Inspector General continued to
conduct the FY 2006 Financial Statement Audit but could not issue the final report
because the auditors were waiting for the provision of necessary information from FLRA
management. The FLRA Inspector General, processed 7 hotline calls and completed 4
investigations during this reporting period. The FLRA Inspector General also completed
and issued the internal review of FLRA Administrative Policies. The updated and new
FLRA Office of Inspector General Instructions were implemented during this reporting
period and placed on the FLRA website and IGnet. The FLRA Inspector General also
created the Office of Inspector General 2007 Strategic Plan.

During this reporting period, the Inspector General provided management with a list of
opened oversight findings and recommendations for corrective actions from 1998 to the
current time and requested management's response regarding the projected time these
corrective actions would be implemented. No response to this request has yet been
provided by FLRA management.

During this reporting period, the FLRA Inspector General provided the Chairman of the
FLRA with specific information relating to litigation issues as well as the independence
of Federal Inspectors General. The FLRA Inspector General also requested an
increased budget so that an extensive technical audit contract regarding FLRA’s
information technology could be conducted during 2007. No response to this request
has yet been provided.




                                37th Semi Annual Report
                                      Page 2 of 55
                  THE FEDERAL LABOR RELATIONS AUTHORITY

The FLRA is an independent agency responsible for directing the labor-management
relations for 1.9 million non-postal Federal employees worldwide, nearly 1.1 million of
who are exclusively represented in approximately 2,200 bargaining units. The FLRA is
charged by the Federal Service Labor-Management Relations (The Statute), section
7105, with providing leadership in establishing policies and guidance relating to Federal
sector labor-management relations, resolving disputes arising among Federal agencies
and unions representing Federal employees, and ensuring compliance with the Statute.

The FLRA represents the Federal government’s consolidated approach to labor-
management relations. The FLRA is “three components in one,” fulfilling legal statutory
responsibilities through the Authority, the Office of General Counsel and the Federal
Service Impasses Panel. The FLRA has 7 regional offices and one satellite office. The
FLRA also provides staff support to two other organizations – the Foreign Service
Impasses Disputes Panel and the Foreign Service Labor Relations Board.

The Authority is a quasi-judicial body with three full-time Members who are appointed
for 5-year terms by the President, with the advice and consent of the Senate. One
member is appointed by the President to serve as Chairman of the Authority and as
Chief Executive and Administrative Officer of the FLRA.

The Authority adjudicates disputes arising under the Statute, deciding cases concerning
the negotiability of collective bargaining agreement proposals, unfair labor practice
(ULP) allegations, representation petitions, and exceptions to grievance arbitration
awards. In addition, consistent with its statutory responsibility to provide leadership in
establishing policies, guidance the Authority assists Federal agencies and unions in
understanding their rights and responsibilities under the Statute and resolving their
disputes through interest-based problem-solving rather than adjudication.

In addition to the three Member Offices, the Authority component of the FLRA also
houses the Office of Administrative Law Judges, the Office of Case Adjudication, and
the Office of the Solicitor, the Office of the Executive Director, and the Office of the
Inspector General.

Office of the Administrative Law Judges: The FLRA’s Administrative Law Judges
(ALJ’s) are appointed by the Authority to conduct due process hearings in accordance
with the Administrative Procedures Act and issue recommended decisions in cases
involving alleged unfair labor practices. ALJ’s also conduct hearings and issue
recommended decisions involving applications for attorney fees and files pursuant to
the Back Pay Act or the Equal Access to Justice Act. In the course of their duties, ALJ’s
conduct pre-hearing conferences, issue subpoenas, rule on motions and evidentiary
issues, and engage in settlement efforts. An ALJ decision may be affirmed, modified, or
reversed, in whole or in part, by the Authority. If no exceptions are filed to an ALJ
decision, the decision is adopted by the Authority and becomes final and binding upon
the parties.

                                 37th Semi Annual Report
                                       Page 3 of 55
Office of Policy, Project & Performance Management: The Office of Policy, Project
& Performance Management is responsible for agency-wide strategic policy and
planning, including the role of Chief Human Capital Officer. The office also provides
oversight with respect to FLRA performance management initiatives. The office drafts,
reviews, and approves all agency-wide instructions and policies; oversees the
Chairman’s and the Administration’s initiatives; and develops agency-wide initiatives,
which upon the Chairman’s final approval, are implemented through the Office of the
Executive Director. The office also houses the agency’s congressional affairs function
and serves as the Chairman’s primary point of contact with the Solicitor, Executive
Director, EEO Director, and Inspector General.


Office of Case Adjudication. The Office of Case Adjudication was created in March
2007 to realign the Authority’s case control staff and professional case writer staff to
maximize the achievements of the Authority Decisional Component. The 3 FLRA
Member Offices still exist and retain a core staff. This change was implemented to
enable the Authority Decisional Component to consistently meet their goals and
improve the ability of the Authority to assign, track and follow-up on Arbitration,
Negotiability, Unfair Labor Practice and Representation cases that are submitted to the
Authority Decisional Component for resolution and disposition.

Office of the Solicitor: The Office of the Solicitor represents the Authority in court
proceedings before all United States Courts, including the U.S. Supreme Court, U.S.
Courts of Appeals, and Federal District Courts. The office serves as the agency’s in-
house counsel, providing legal advice to all FLRA components. The Solicitor is also the
Designated Agency Ethics Officers under the Ethics in Government Act of 1978, as
amended.

Office of the Executive Director: The Office of the Executive Director provides
operational support to all components of the FLRA, including budget and finance,
human resources, procurement, administrative services, and information resources
management and is responsible for developing and implementing agency-wide
initiatives, such as strategic planning.

Office of the Inspector General: The Office of the Inspector General (OIG) is
responsible for directing and carrying out audits and investigations related to the FLRA
programs and operations. In addition, the Inspector General is authorized to create and
recommend policies that promote economic, efficient, and effective agency programs,
which prevent fraud, waste, abuse and mismanagement. The Inspector General is
responsible for keeping the Chairman, FLRA and the Congress fully informed of
problems and deficiencies, as well as, the necessity for corrective actions. Public Law
100-504 and the Inspector General Act, as amended, mandate the requirements,
objectivity and independence of Federal Agency Inspectors General.




                                37th Semi Annual Report
                                      Page 4 of 55
The Office of the General Counsel: The Office of the General Counsel (OGC) is a
component of the FLRA. The General Counsel, who is appointed by the President with
the advice and consent of the Senate for a 5-year term, manages all OGC employees.
The OGC includes seven regional offices located in Atlanta, Boston, Chicago, Dallas,
Denver, San Francisco, and Washington, DC and one remote duty location in Brea,
California. The OGC investigates all unfair labor practice charges filed either by an
employee, a labor union or a federal agency and prosecutes all unfair labor practice
complaints before the Authority. The OGC is also responsible for receiving and
processing representation petitions and providing education services to the parties. The
General Counsel reviews all appeals of a Regional Director’s decision to dismiss an
unfair labor practice charge and establishes case-handling policies and procedures for
the OGC.


The Federal Service Impasses Panel: The Federal Service Impasses Panel (FSIP or
the Panel) is composed of seven part-time Members who are appointed by the
President to serve for a 5-year term. One Member is appointed by the President to
serve as the Panel Chair. The Panel resolves bargaining impasses between Federal
agencies and unions representing Federal employees arising from negotiations over
conditions of employment under the Statute and the Federal Employees Flexible and
Compressed Work Schedules Act. If bargaining between the parties, followed by
mediation assistance, proves unsuccessful, the Panel has the authority to recommend
procedures and to take whatever action it deems necessary to resolve the impasse.

The Foreign Service Labor Relations Board: The Foreign Service Labor Relations
Board, (the Board) was created by the Foreign Service Act of 1980 to administer the
Labor-Management Relations Program for Foreign Service employees in the U.S.
Information Agency, the Agency for International Development, and the Departments of
State, Agriculture and Commerce. The Board is composed of three Members, including
the Chairman of the Authority who appoints the other two Members, who serve on a
part-time basis. The Chairman of the Authority also serves as Chairman of the Board.
The FLRA General Counsel acts as General Counsel for the Board, and the Authority
staff provides necessary support to the Board.

The Foreign Service Impasse Disputes Panel: The Foreign Service Impasse
Disputes Panel (the Disputes Panel) was also created by the Foreign Service Act of
1980. The Disputes Panel is composed of five part-time Members who are appointed
by the Chairman of the Foreign Service Labor Relations Board (the FLRA Chair). The
Disputes Panel resolves bargaining impasses between Federal agencies and Foreign
Service personnel in the U.S. Information Agency, the Agency for International
Development, and the Departments of State, Agriculture, and Commerce, over
conditions of employment under the Foreign Service Act of 1980. The FSIP staff
supports the Disputes Panel.




                                37th Semi Annual Report
                                      Page 5 of 55
The FLRA's headquarters is located in Washington, D.C. The FLRA maintains regional
offices in Atlanta, Boston, Chicago, Dallas, Denver, San Francisco, and Washington,
D.C.

FLRA MISSION STATEMENT

The Federal Labor Relations Authority exercises leadership under the Federal Service
Labor-Management Relations Statute to promote stable, constructive labor relations
that contribute to a more effective Government.

The mission of the FLRA is to carry out five primary statutory responsibilities as
efficiently as possible and in a manner that gives full effect to the rights afforded
employees and agencies under the Statute.

Under the Statute, the primary responsibilities of the FLRA include:

   •   Determining the appropriateness of units for labor organization representation;
   •   Adjudicating exceptions to arbitrator's awards;
   •   Resolving complaints of unfair labor practices; and
   •   Resolving impasses and issues relating to the duty to bargain.

OFFICE OF INSPECTOR GENERAL

The Federal Labor Relations Authority Inspector General:

       Conducts and supervises investigations, internal reviews, audits and evaluations
       of the programs and operations of the FLRA;

       Provides leadership and coordination, and recommends actions to management,
       which:

        1.   promote economy, efficiency, and effectiveness in agency programs and
             operations; and

        2.   prevent and detect fraud, waste, abuse, and mismanagement of
             government Resources

       Inform the Chairman, FLRA management, and the Congress regarding problems
       and deficiencies, and the progress of corrective actions.

The Inspector General’s Office is currently staffed with one full time Inspector General
and one full time Administrative Assistant. When required, the FLRA Inspector General
uses contractor auditors to perform FLRA audits. The Office of the Inspector General's
The FLRA, Inspector General submitted a request for an increase in operational funding
in the FLRA Office of Inspector General to conduct at least one audit in addition to the
Financial Statement Audit. So far, no response from management has been received..

                                 37th Semi Annual Report
                                       Page 6 of 55
OFFICE OF INSPECTOR GENERAL MISSION STATEMENT

The mission of the FLRA Office of Inspector General is to provide FLRA leadership, with
an independent and objective assessment of the organization’s efficiency and
effectiveness. This is accomplished through proactive oversight activities of FLRA
operational processes. The Inspector General provides necessary oversight and serves
as a catalyst for improving and maximizing the efficiency and integrity of FLRA
programs and operations. The goal of the Inspector General's work is to maximize the
effectiveness of FLRA programs by evaluating performance and identifying ways to
make these programs more efficient and effective. In addition, the FLRA Inspector
General strives to prevent and detect fraud, waste, abuse, and mismanagement of the
FLRA’s resources and operations, which could adversely impact the organization’s
integrity and ability to perform its mission in a timely, customer responsive manner.

The primary objectives of the Office of Inspector General are as follows:

   •   To evaluate the efficiency and effectiveness of FLRA program and resource
       management and identify best practices, as well as causative factors, impeding
       the accomplishment of the FLRA mission.

   •   To assist the Chairman and FLRA management in carrying out their
       responsibilities by providing them with objectives and timely information on the
       conduct of FLRA operations, together with the Inspector General’s independent
       analysis, conclusions, and recommendations.

   •   To use evaluations, internal reviews, and more traditional assessment tools of
       audits, inspections, and investigations, to maximize oversight and strengthen
       system and process controls.

   •   To support the Administration and Congress in maximizing Government integrity
       and efficiency and minimizing the occurrence of fraud, waste, abuse, and
       mismanagement.

AUDIT/INTERNAL REVIEW ACTIVITY

During this reporting period the FLRA Office of the Inspector General performed the
following audits and reviews in compliance with Government auditing standards:

Audit of 2005 FLRA Financial Statements                                     Open

The Final Report was not issued during this reporting period but should be shortly.

During this reporting period, the Office of the Inspector General contracted auditors
conducted the 3rd option of the annual required audit of FLRA's compliance with
Federal financial statement requirements. This audit includes the review of FLRA's
balance sheet and the related statements of net cost, changes in net positions,

                                 37th Semi Annual Report
                                       Page 7 of 55
budgetary resources and financing for fiscal year 2006. This audit includes a
comprehensive review of FLRA internal controls and risk assessments related to
management of the FLRA’s financial statements. The audit also includes a review of
and update of the findings and recommendations from the FLRA’s 2004-2006 Financial
Statement Audits, most of which have not yet been addressed by management.

Internal Review of FLRA Administrative Policy                               Closed

During this reporting period the FLRA Inspector General completed an extensive review
of FLRA policy, which included an initial review of current related Federal laws and
legislation as well as the FLRA policy. This review revealed that in 2002, a significant
amount of FLRA policy was cancelled and only a few of these cancelled instructions
have been re-created. This review affirmed that an extensive amount of FLRA’s
administrative policy also require immediate updates or revisions including an
instruction relating to the creation of instructions. Management has contracted out for
the recreation or update of FLRA’s policy which is currently in progress.

FLRA Inspector General Policy                                               Closed

All Office of Inspector General policy created in l998 and l999 were updated and new
policy on contracting auditors which was created , were implemented during this
reporting period and will be accessible on the FLRA Inspector General website as well
as IGnet.com. very soon.

Information on Litigation and Inspector General Independence                Closed

In response to a request from the Chairman, FLRA, the FLRA Inspector General
provided extensive information relating to Inspector General independence and
interaction with employees involved in litigations regarding other oversight matters.

ADDITIONAL ACTIVITIES

Training

During this Reporting Period, the FLRA Inspector General attended the following
conferences which did not require financial expenditures by the FLRA..

-   AGA Financial Management
-   Government Executive 2007 Management Agenda (Clay Johnson)
-   2007 Government Ethics
-   Beyond FISMA Compliance: Measuring Security and Mitigation Risks

Executive Counsel of Integrity and Efficiency (ECIE)

The FLRA Inspector General attends the ECIE monthly meetings on a regular basis to
make sure that the FLRA Office of Inspector General is current and aware of

                                 37th Semi Annual Report
                                       Page 8 of 55
requirements, operations and issues related to ECIE Inspectors General. The ECIE
also appointed the FLRA Inspector General to represent the ECIE on the PCIE/ECIE
Human Resource Committee.

2006 PCIE/ECIE Report to the President

During this reporting period, the FLRA Inspector General provided requested
information to the PCIE/ECIE for the creation and issuance of the 2006 PCIE/ECIE
Report to the President which was issued on February 28, 2007.

Oversight Corrective Actions

The FLRA Office of the Inspector General findings and recommendations from 1998 to
the present were submitted to FLRA management during this reporting period.
Management was asked to provide information to the FLRA Inspector General
regarding management actions related to addressing the oversight activities’ findings
and recommendations, some of which have been open from l998 to the present. No
response from management was received.

Security Issues

During this reporting period, no specific security issues occurred. One issue relating to
a harassment message left on a FLRA employee’s telephone by a private sector
individual was investigated by the FLRA Inspector General and forwarded to the
Federal Protective Service for an investigation of the private sector individual(s)
involved in this issue.




                                 37th Semi Annual Report
                                       Page 9 of 55
INVESTIGATIONS:                                                                    Closed

During this reporting period, the FLRA Inspector General conducted and completed 4
administrative investigations. One of these investigations was forwarded to the Federal
Protective Service because some issues revealed by this investigation could relate to
illegal actions.


Case No.           Subject                         Date           Status
                                                   Received
2007-I-01          AFGE Local Union Steward        November       Closed
                   alleges improper handling of    20, 2006       March 12, 2007
                   Case WA-CA-050372 by the
                   Washington Regional Office.
2007-I-02          FBI request for Information     January 9,     Closed
                   regarding FLRA Inspector        2007           January 10, 2007
                   General investigations
                   regarding former FLRA
                   Member.
2007-I-03          FBI request for Information     January 23,    Closed
                   regarding FLRA Inspector        2007           January 24, 2007
                   General investigations
                   regarding the Head of the
                   FLRA Entity.
2007-I-04          FLRA employee received a        February 24,   Closed
                   negative phone call from a      2007           Forwarded to Federal
                   telephone number from which                    Protective Service
                   he had several previous calls                  March 14, 2007
                   and did not respond to.




                                 37th Semi Annual Report
                                       Page 10 of 55
HOTLINE

During this reporting period, the FLRA Inspector General handled 7 Hotline Calls.


 Case No.         Subject                           Date Received Status
 2007-H-01        Private Sector employee           October 5, 2006   Referred to the
                  alleges improper handling of                        Department of
                  her employment pay.                                 Labor Inspector
                                                                      General.

                                                                      Closed: October 5,
                                                                      2006
 2007-H-02        Department of Army                October 19,       Referred to the
                  employee alleges improper         2006              Department of
                  actions relating to his                             Defense Inspector
                  children and his job                                General.
                  requirements.



 2007-H-03        FLRA employee alleged that        November 3,       Preliminary review
                  a FLRA GRA contractor             2003              by FLRA IG
                  wrote an article in a FSA                           verified that the
                  Feds regarding General                              gentleman who
                  Counsel’s new policy on                             wrote the article
                  ULP case settlement.                                was not working as
                                                                      a contractor for the
                                                                      FLRA 2007
                                                                      Human Resource
                                                                      contract.

                                                                      Closed: November
                                                                      7,2006
 2007-H-04        Private Sector employee           November 29,      Referred to the
                  alleges that it was an interest   2006              Department of
                  of conflict to have a hired                         Labor Inspector
                  contractor and have an                              General.
                  employee do the job of the
                  contractor.                                         Closed: November
                                                                      29, 2006




                                  37th Semi Annual Report
                                        Page 11 of 55
HOTLINE cont.
   Case No.               Subject                Date Received             Status

2007-H-05       Private Sector Employee          January 31, 2007   Referred to the
                alleged improper                                    Department of
                management and threat to                            Labor Inspector
                eliminate her job.                                  General.

                                                                    Closed January 3,
                                                                    20007
2007-H-06       Private Sector Employee          February 9, 2007   Referred to the
                alleged that management                             Department of
                told him he had to remove                           Labor Inspector
                his wedding ring from his                           General.
                hand during work or he
                would be fired.                                     Closed February 9,
                                                                    2007

2007-H-07       Former disabled Veteran          March 09, 2007     Referred to the
                who now works in the                                Department of
                private sector stated that                          Labor.
                allowing Spanish people to
                become part of the United                           Closed
                States and continue to speak
                Spanish (often in a                                 March 09,2007
                derogatory manner) requires
                Americans to also speak
                Spanish to obtain a decent
                job in areas where Mexicans,
                Spanish and Cuban people
                live within the United States.




                               37th Semi Annual Report
                                     Page 12 of 55
OFFICE OF INSPECTOR GENERAL CORRECTI VE ACTIONS
Fiscal Year 2007

The following recommendations are the results of FLRA Inspector General Oversight
Activities which have to be addressed by FLRA management.

     Report No.      Recommendation                   Target                Actual Date Status
     Issued Date                                      Completion
NARA Evaluation of   I/8(a) Develop a self-                                             Open
FLRA                 evaluation records
Section I            management checklist and
                     distribute.

                       (b) Conduct periodic           Conduct every 3                   Ongoing
                     evaluations.                     years on October 1.

                       (c) Ensure recommend-          Implement every                   Ongoing
                     dations are implemented.         3 years.
Section II
                     II /1: Ensure that the
                     maintenance of records           Revised target date               Open
                     documenting agency actions,      to 9/30/03.
                     policies and procedures are
                     current and distributed to
                     staff.

                     II/2(a) Review working case      2/30/99.                          Open
                     files retention.


                         (b) Meet with office         Revised target date               Open
                     Directors to develop retention   to 9/30/03.
                     schedules for all records not
                     in current schedule and get
                     recommendations for changes
                     to current schedule.


                        (c) Develop retention         Revised to 9/30/03.               Open
                     schedules for new records
                     and make changes to current
                     schedules.




                                37th Semi Annual Report
                                      Page 13 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

     Report No.       Recommendation                   Target                Actual Date Status
     Issued Date                                       Completion
NARA Evaluation of    I/8(a) Develop a self-                                             Open
FLRA                  evaluation records
Section I             management checklist and
                      distribute.

                        (b) Conduct periodic           Conduct every 3                   Ongoing
                      evaluations.                     years on October 1.

                        (c) Ensure recommend-          Implement every                   Ongoing
                      dations are implemented.         3 years.
Section II
                      II /1: Ensure that the           Revised target date               Open
                      maintenance of records           to 9/30/03.
                      documenting agency actions,
                      policies and procedures are
                      current and distributed to
                      staff.

                      II/2(a) Review working case      2/30/99.                          Open
                      files retention.


                          (b) Meet with office         Revised target date               Open
                      Directors to develop retention   to 9/30/03.
                      schedules for all records not
                      in current schedule and get
                      recommendations for changes
                      to current schedule.


                         (c) Develop retention         Revised to 9/30/03.               Open
                      schedules for new records
                      and make changes to current
                      schedules.




                                 37th Semi Annual Report
                                       Page 14 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

     Report No.             Recommendation                    Target         Actual Date   Status
     Issued Date                                            Completion

Section II – cont.       (d) Submit new schedule       Revised to 9/30/03.                 Open
                      for Archivist’s approval.


                        (e) Include approved           Revised to 9/30/03.                 Open
                      schedule in updated instruct-
                      ton 1323.1.

                      II/3: Require offices to         Revised to 9/30/03.                 Open
                      separate temporary and
                      permanent case files.


                      II/4: Ensure that photographs    Revised to 9/30/03.                 Open
                      that are a part of a permanent
                      case file conform to 36 CFR
                      § 1232.


                      II/5: Establish a Vital          Revised to 9/30/03.                 Open
                      Records Program.


                      II/6: Identify vital FLRA        Revised to 9/30/03.                 Open
                      records and enact measures to
                      protect and update them, and
                      ensure their availability
                      during emergencies.
                                                                                           Open
                      II/7: Consider the offsite       Revised to 9/30/03.
                      maintenance/storage of
                      copies of vital records.

Section III           III/1: Identify which FLRA       Revised to 9/30/03.                 Open
                      records are not covered by
                      records schedule or the
                      General Record Schedules.


                                  37th Semi Annual Report
                                        Page 15 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

     Report No.            Recommendation                    Target          Actual Date   Status
     Issued Date                                           Completion

Section III – cont.   2. Develop and submit to        Revised to 9/30/03.                  Open
                      NARA proposed records
                      schedules for unscheduled
                      records.


Chicago Regional      3. Formalize the creation       Revised target date                  Open
Office                maintenance/disposition of      9/30/03.
                      administrative records to the
                      same extent as program
                      records.

                      4. Offer records management     Revised target date                  Open
                      guidance to staff on            9/30/03.
                      electronic Records
                      Management and FOIA
                      procedures (including E-
                      FOIA amendments).

Management Letter     1. Update all FLRA              Newly established                    Open
4/19/98               delegations of authority,       policy & Planning
Instructions/MOU      memoranda of under-             position will
Update                standing, and instructions to   coordinate/division,
                      reflect current mission.        as appropriate, to
                                                      accomplish
                                                      revisions and up-
                                                      dates on a rolling
                                                      basis.

                      2. Distribute updated policy                                         Open
                      to all managers and make
                      them available to all
                      employees in one central
                      folder on the FLRA website
                      along with updated index.




                                 37th Semi Annual Report
                                       Page 16 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007


    Report No.               Recommendation                  Target           Actual Date     Status
    Issued Date                                           Completion
Later. dated: 9/28/99   1. Establish an accountability Revised target date   HR will work     Open
OPM Review of           system to assess management 4/30/00.                 with Human
FLRA Human              utilization of human                                 Capital Office
Resources Program       resources.                                           position,
                                                                             assigned in
                                                                             accordance
                                                                             with OPM
                                                                             guidelines on
                                                                             newly enacted
                                                                             legislation.

                        2. Study quality of              4/30/00.                             Open
                        performance feedback and
                        provide strategies for
                        ensuring sufficient quality
                        performance feedback is
                        provided to employees.

Audit of the FLRA       Review all current personnel                                          Open
FY 98 Financial         files to ensure payroll, leave
Statements and          and benefits information is
Central Services        correct and reconciles that
Fund (Report No.        which is maintained by
99-01-September         Denver Payroll Operations
1999)                   Division and take appropriate
                        action to recon ciliate any
                        overpayments or under
                        payment found. The results
                        of this effort should be
                        specifically reported to the
                        FLRA Inspector General.




                                   37th Semi Annual Report
                                         Page 17 of 55
Federal Labor Relations Authority
Office of Inspector General
Corrective Actions Status
Fiscal Year 2007

     Report No.            Recommendation                    Target     Actual Date   Status
     Issued Date                                           Completion
Audit of the FLRA     Review, update and revise as    .                               Open
FY 98 Financial       necessary, FLRA Regulation
Statements and        2301.1 Financial Manage-
Central Services      mint System to reflect
Fund                  contemporary policy,
                      including a requirement for a
                      documented yearly review of
                      financial management
                      statements by the Executive
                      Director and audits of
                      financial statements by an
                      independent source on a
                      yearly basis.

Internal Review of    1. Create centralized           Management does                 Open
FLRA External         Administrative Tracking         not concur that
Affairs May 2000      System.                         Agency needs a
                                                      centralized
                                                      administrative
                                                      tracking system
                      2. Develop/implement FLRA                                       Open
                      External Affairs Policy.

Internal Review of    1. Create Agency Policy for                                     Open
FLRA External         Compliance with the             .
Affairs May 2000      Paperwork Reduction Act



Investigation         1. Create Agency Policy for     .                               Open
2000-I-30             compliance with the
August 2000           Paperwork Reduction Act.




                                 37th Semi Annual Report
                                       Page 18 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

     Report No.            Recommendation                    Target      Actual Date   Status
     Issued Date                                           Completion
FLRA Information      13. Define rules of behavior                      Estimated      Open
System Security       for each system based on         .                12/30/05
Audit 2001            management’s defined level
                      of acceptable risk.

Internal Review of    1. Director, BFD should                                          Open
FLRA’s Travel         prepare overarching general
Program               agency travel policies, which
FY 2001               address requirements,
                      expectations and prohibitions
                     2.Update, revise or cancel                                        Open
                     existing obsolete travel
                     instructions and guidance
                     including:
                     -FLRA travel Guideline
                     Handbook.
                      -Guidance on reimbursable
                      support.
                      3. Ensure that all lists and                                     Open
                      policies that are sent to the
                      National Business Center,
                      National Travel Service, Inc.,
                      and Citibank are current.
                      4. Director, BFD should                                          Open
                      discuss the use of FLRA’s
                      formatted travel
                      reimbursement vouchers and
                      address any deficiencies with
                      the Director, IRM.
                      5. FLRA Travel Manager                                           Open
                      should request that National
                      Travel website to
                      accommodate FLRA’s
                      travelers needs and ensure
                      that al FRLA employees are
                      trained to use the website




                                 37th Semi Annual Report
                                       Page 19 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year -2007
    Report No.             Recommendation                    Target     Actual Date   Status
    Issued Date                                            Completion
Internal Review of    6. Require FLRA travelers to
FLRA’s Travel         use Hotel Occupancy tax                                         Open
Program FY 2001       Elimination Forms while on
                      government travel. Compile
                      list of states that honor and
                      fail to honor such forms and
                      distribute such forms and
                      distribute to FLRA
                      employees.
                      8. Director BFD should work
                      with National Business                                          Open
                      Center to set criteria,
                      standards and policies for
                      ravel reimbursement.
                      1. Conduct a cost benefit                                       Open
                      analysis for automating the
                      procurement system and
                      implement if cost effective

                      2. Establish a MOA with an
                      executive Agency to
                      administrate FLRA contract
                      appeals.

                      3. Brief FLRA management
                      on basic federal procurement
                      requirements.

Management Letter 1. Create internal policy                                           Open
Fair Act Compliance (include competition plan) for
                    contracting our commercial
                    activities.
                    2. Annually see management
                    input to validate inherently
                    governmental and
                    commercial activities




                                 37th Semi Annual Report
                                       Page 20 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

    Report No.              Recommendation                   Target       Actual Date   Status
    Issued Date                                            Completion

Management Letter 3. Perform cost analysis on                                           Open
Fair Act Compliance positions identified in the FY
                    2002 and future Fair Act
                    submission private sector as
                    well as federal organizations
                    before contracting with
                    federal agencies.

                      4. Include justifications                                         Open
                      retaining defined non-
                      inherently government
                      positions in the FLRA
                      5. Assign future               .
                      responsibility for competitive                                    Open
                      outsourcing including Fair
                      Act Compliance, to the FLRA
                      Contracting Officer.


                      1. Provide Regional Office      5/2002                            Open
                      Personnel contemporary          Proposed Action
                      training in customer service,   Plan to implement
                      communication, behavioral       Investigation
                      and other pertinent human       findings deferred
                      capital training.               by Chairman,
                                                      FLRA.

                      2. Provide Atlanta Regional                                       Open
                      Office employees training on
                      federal, FLRA and OGC
                      administrative requirements
                      including employee rights
                      and responsibilities




                                 37th Semi Annual Report
                                       Page 21 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.              Recommendation                         Target     Actual Date Status
Issued Date                                                  Completion
Management Letter       3. Provide new Atlanta                                        Open
Fair Act Compliance     Regional Office employees
Cont.                   with on site training on OGC
                        unfair labor practice charge
                        and representation case
                        processing policies.

                        5. Obtain qualified person to                                 Open
                        perform a Myers Briggs
                        Analysis and use this analysis
                        for employees to understand
                        behavioral interactions,
                        perceptions and reactions.

Investigation 2002-I-   6. Have Director, Atlanta                                     Open
33                      Regional Office document
                        and discuss all new internal
                        procedures and expectations
                        and distribute to all
                        employees.

                                                                                      Open
                        7. Have Director, Atlanta
                        Regional Office document all
                        individual and staff
                        counseling.
                                                                                      Open
                        8. Have Director, Atlanta
                        Regional Office continue
                        supporting high work
                        standards and standards of
                        conduct, cross training, and
                        employee mentoring and
                        development.




                                   37th Semi Annual Report
                                         Page 22 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.                 Recommendation                   Target     Actual Date Status
Issued Date                                               Completion

Internal Review of    1. Create and provide FLRA                                   Open
Debt Collection       employees with policy/
November 2002         guidance on the use of
                      Government credit card (both
                      previous IG audit/internal
                      reviews on Simplified
                      Acquisitions and the Travel
                      Program recommended this.)
                      FLRA policy should
                      incorporate the cancellation
                      of a credit card if an
                      individual misuses the card
                      more than once.

                      2. Require the FLRA                                          Open
                      Contracting Officer and
                      Travel Manager to conduct
                      monthly reviews on
                      government credit card usage
                      by FLRA employees pursues
                      questionable items and
                      document findings. The
                      Executive Director should
                      review this documentation at
                      least semi-annually.

                      3. Require supervisors to
                      provide employees                                            Open
                      information on the use and
                      misuse of the government
                      credit card and provide more
                      oversight over employees
                      who have misused their cards.




                                37th Semi Annual Report
                                      Page 23 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.                 Recommendation                     Target     Actual Date Status
Issued Date                                                 Completion
                                                                                     Open
                      1. BFD should generate
                      transactional report for
                      General Ledger Accounts
                      #4870 and 4880 to determine
                      the nature of transactions
                      being recorded, processed         .
                      and changed that are needed
                      to properly record transaction
                      affecting these accounts.

                      2. BFD should accrue for                                       Open
                      annual invoices received and
                      not yet processed with a fiscal
                      year subsequent processing
                      date.

                      3. BFD should check                                            Open
                      Citibank invoices received
                      and not yet processed by the
                      end of the fiscal year and
                      establish dollar thresholds
                      that have not been accrued in
                      the previous invoice accrual
                      and determine if goods or
                      services have been received
                      prior to the end of the fiscal
                      year. This determination
                      should be documented.

                      4. BFD should review old,                                      Open
                      undelivered orders and de-
                      obligate them prior to fiscal
                      year end if they are no longer
                      valid.




                                 37th Semi Annual Report
                                       Page 24 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                    Target       Actual Date Status
Issued Date                                             Completion

                      5. BFD should resend                                       Open
                      invoices for Federal Agency
                      receivables and have the
                      National Business Center
                      (Denver) pursue these
                      collections.

                      6. FLRA should request two                                 Open
                      copies of non-reproducible
                      reports in order to ensure
                      support documents are
                      retained. BFD should pursue
                      retaining electronic versions
                      of system-generated reports.

                      7. FLRA should implement                                   Open
                      procedures to ensure that both
                      the journal entries for the
                      disposition of fixed assets and
                      correction of expenditures
                      erroneously capitalized as
                      fixed assets are performed in
                      a timely manner to ensure
                      proper statement of the
                      general ledger at the fiscal
                      year end.

                      8. Expenditures recorded to                                Open
                      fixed assets should be
                      properly reviewed prior to
                      recording to ensure each of
                      the expenditures meet the
                      definition of capitalized
                      assets.




                                 37th Semi Annual Report
                                       Page 25 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                          Target     Actual Date Status
Issued Date                                                 Completion
                      The Administrative Services                                    Open
                      Division should review 9.
                      Copiers and other office
                      automation centrally and the
                      number of vendors should be
                      minimized to obtain
                      economic purchases and
                      efficiencies in maintenance
                      and operation.

                      10. FLRA should identify                                       Open
                      furniture on a replacement
                      cycle with the Agency’s
                      Central Services Fund to
                      provide a systematic method
                      for budgeting for and
                      replacing furniture.

                      11. BFD should implement                                       Open
                      the use of electronic
                      spreadsheets as a standard for
                      accounting documentation to
                      allow for easy documentation
                      of explanatory notes and
                      imputing changes.

                      12. FLRA should include an                                     Open
                      amount in the accrued FECA
                      liability for the estimated
                      fourth quarter FECA claim
                      costs.

                      13. FLRA should record                                         Open
                      liability for future workers’
                      compensation.




                                  37th Semi Annual Report
                                        Page 26 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                 Target       Actual Date Status
Issued Date                                          Completion
                      14. The FLRA should pursue                              Open
                      the filling of the BFD
                      Accounting Officer position.
                                                     .
                      15. The FLRA should                                     Open
                      enhance the Accounting
                      Manual with the detail of
                      specific procedures for the
                      department staff.

                      16. FLRA should develop                                 Open
                      written budget information
                      and execution policy that
                      outlines the process; states
                      procedures utilized and
                      clarify FLRA approaches and
                      methodology.

                      17. Significant changes or                              Open
                      direction from the initial
                      budget submission should be
                      communicated to cost center
                      managers in a timely manner.

                      18. FLRA components and                                 Open
                      subcomponents should
                      develop data to support
                      effective and justifiable
                      resource allocations.

                      19. The FLRA should                                     Open
                      consider separating the
                      information Technology
                      budget from the Agency
                      Central Services Fund and
                      place it under the
                      responsibility of the Chief
                      Information Officer.



                                 37th Semi Annual Report
                                       Page 27 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                   Target       Actual Date Status
Issued Date                                            Completion
Executive Summary     1. FLRA Authority                                         Open
FLRA Case             Members/Chief Counsels
Processing            should develop standard
                      policy and timeliness for case
                      processing, including the
                      average length of time the
                      case should be at various
                      stages of its process.
                      2. The FLRA Chief Counsels                                Open
                      need to work with the
                      Director, Case Control Office
                      to expand the current system
                      and establish a complete and
                      interactive automated Case
                      Tracking System.
                      3. FLRA Authority Members                                 Open
                      should standardize their case
                      processes, internal goals,
                      internal controls and
                      performance standards for all
                      of their employees.
                      4. FLRA Authority Members                                 Open
                      should create a standard case
                      processing policy (or manual)
                      to ensure that current and new
                      employees perform their
                      duties appropriately.
                      5. The Screening Committee                                Open
                      should be required to provide
                      more merit review and legal
                      issue information on the cases
                      they review.




                                 37th Semi Annual Report
                                       Page 28 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                  Target       Actual Date   Status
Issued Date                                           Completion
Executive Summary     6. The Authority cases                                     Open
FLRA Case             should be reviewed
Processing Cont.      thoroughly by each Chief
                      Counsel
                      7. Input from the Members at                               Open
                      the time of case assignment
                      and more interaction among
                      the Members and their senior
                      staff would eliminate
                      repetition.
                      8. The Authority should                                    Open
                      consolidate the issuance of
                      the Issue Memorandum for
                      non-complex cases and
                      implement a Member/Chief
                      Counsel Meeting.
                      9. The Director, Case                                      Open
                      Control Office, Members’
                      Senior Chief Counsels should
                      once again with the Chief
                      Information Officer and
                      Director, Information
                      Resources Management to
                      improve the current case
                      tracking system to support
                      Authority Member Office
                      case tracking process.
                      10. Add an additional FTE to                               Open
                      the Collaborative Alternative
                      Dispute Resolution Office to
                      enable the Authority process
                      of resolution to expand.




                                37th Semi Annual Report
                                      Page 29 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                   Target       Actual Date   Status
Issued Date                                            Completion
Executive Summary     11. The Authority should                                    Open
Cont.                 plan a training conference for
                      Federal agency.

Follow-up on FY       1. Human Resources                                          Open
2000 FLRA IG          Division should prepare a
Review of FLRA’s      work plan specifically related
Human Capital         to the FY 2000 Findings and
                      Recommendations.
                      2. Establish an integrated                                  Open
                      senior leadership/
                      management team to address
                      human capital issues and
                      provide justified
                      recommendations to the
                      Chairman.
                      3. Reinstate monthly                                        Open
                      management meetings during
                      which current management
                      issues are discussed and each
                      manager is required to brief
                      all managers on major
                      activities.
                      4. FLRA components should                                   Open
                      be briefed on behavior and
                      communication interactions
                      and communication
                      interactions and engage in
                      personality testing. (Myers
                      Briggs Type indicator and/or
                      Strong Interest Inventory).
                      This could be done in-house
                      or at an offsite meeting.




                                 37th Semi Annual Report
                                       Page 30 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                    Target       Actual Date   Status
Issued Date                                             Completion
Follow-up on FY       5. The Agency needs to                                       Open
2000 FLRA IG          compile more human capital
Review of FLRA’s      statistics to make proper
Human Capital         human capital decisions. The
Cont.                 following data should be
                      considered to be collected by
                      HRD:

                      --workforce data,
                      --skills inventory,
                      --dates and dispersal of
                         performance appraisal,
                      --yearly vacancies and time
                         time period required to fill
                         them,
                      --yearly data on number and
                         cost of bonuses, awards and
                         other incentives,
                      --yearly statistics on grieve
                        ances,
                      --EEO complaints and costs
                      in dollars,
                      --costs of promotions and
                         within grade increases,
                         and amount per employee
                         spent for training and its
                         percentage of the operating
                         budget.
                      6. Update the FLRA                                           Open
                      Strategic Plan and have
                      management revise
                      component action plans and
                      employee work and
                      performance plans with focus
                      on agency-wide results.




                                 37th Semi Annual Report
                                       Page 31 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                  Target       Actual Date   Status
Issued Date                                           Completion
Follow-up on FY       7. The Chairman, FLRA                                      Open
2000 FLRA IG          should appoint a Human
Review of FLRA’s      Capital Officer and/or Senior
Human Capital         Management Committee who
Cont.                 should address Agency-wide
                      human capital issues and
                      work with the Director, HRD
                      to ensure agency-wide
                      compliance with the
                      President’s Management
                      Agenda’s human capital
                      standards.
                      8. FLRA/HRD should                                         Open
                      perform an Agency-wide
                      employee skills inventory. It
                      definitely would provide a
                      baseline for skill needs,
                      employee training and future
                      hiring.
                      9. All FLRA supervisors                                    Open
                      should be required to provide
                      employees with work plans
                      and individual development
                      plans.

Internal Review of    1. Add contemporary safety,                                Open
FLRA’s                health, and security
Occupational Safety   information including the
& Health Issued       Emergency Plan and a current
August 2003           list of FLRA policy to the
                      website as well as the
                      Orientation Package given to
                      new employees.




                                 37th Semi Annual Report
                                       Page 32 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                      Target       Actual Date   Status
Issued Date                                               Completion
                      2. Increase Agency-wide                                        Open
                      training for FLRA safety and
                      health programs. Ensure that
                      all supervisors are
                      knowledge, aware of OSHA
                      requirements and provide
                      contemporary information to
                      their staffs. Include volunteer
                      training to CPR and increase
                      safety evacuation information
                      to include maps of areas,
                      where to ensure employee
                      safety.
                      3. FLRA/HRD should ensure                                      Open
                      that all OSHA statistics and
                      records be maintained so that
                      the FLRA is in compliance
                      with the OSHA requirements.
                      4. FLRA/HRD should                                             Open
                      expand its definition of
                      sensitive positions to, at least,
                      include Security Officers,
                      Computer Information
                      Officers and both senior and
                      line managers and comply
                      within its Drug Free
                      Workplace Plan by randomly
                      testing at least one person per
                      year.
                      5. The FLRA Executive                                          Open
                      Director and Director
                      Administrative Services
                      Division should review the
                      Interagency Agreements with
                      the Department of Health and
                      Human Services and ensure
                      that all stated provisions are
                      current and addressed.


                                  37th Semi Annual Report
                                        Page 33 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                   Target       Actual Date   Status
Issued Date                                            Completion
                      6. The FLRA Safety                                          Open
                      Program Manager should
                      ensure that all FLRA sub
                      components maintain
                      standardized sufficient and
                      accessible safety/protective
                      equipment.
                      7. FLRA management should                                   Open
                      prioritize the development of
                      an FLRA Continuity of
                      Operations (Contingency)
                      Plan.
                      8. Annual FLRA facility                                     Open
                      (Headquarters and Regional
                      Offices) safety checks should
                      be performed by the building
                      Security Officer or FLRA
                      Security Officer, and
                      maintained/documented and
                      followed up by ASD’s
                      Security Officer.

Internal Review of    2. Because of the significant                               Open
FLRA’s                amount of travel by some
Government            agency component and
Vehicles              subcomponent employees,
August 2003           appropriate agency internal
                      travel policy and statistics
                      need to be defined and
                      maintained by all three
                      components of the Agency to
                      properly assess travel costs
                      and budget travel allocations.




                                 37th Semi Annual Report
                                       Page 34 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.              Recommendation                     Target       Actual Date   Status
Issued Date                                                Completion
Internal Review of      3. FLRA Budget and Finance                                    Open
FLRA’s                  Division Director should
Government              semiannually monitor travel
Vehicles                transportation mileage logs
August 2003             and related costs, travel safety
                        and security incidents and
                        other related expenditures
                        cost and provided internal
                        semi-annual reports to the
                        Chairman, FLRA, Counsel,
                        Chairman of FSIP, and
                        Director of Administrative
                        Law Judges.

                      1. Director of Administrative                                   Open
                      Services Division should:
                            (a) Work with building
                      owners and maintenance
                      personnel to ensure that
                      parking garage exterior doors
                      remained locked and secured.
                            (b) Install door locks on
                      all interior doors.
Office of the General 2. The FLRA should comply                                       Open
Counsel Internal      with Public Law 106346 and
Review of Remote      create policy for employees
Duty Locations        who are or will volunteer to
March 2004            work full-time at home prior
                      to making a decision to
                      eliminate their remote duty
                      stations.




                                    37th Semi Annual Report
                                          Page 35 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.             Recommendation                     Target       Actual Date   Status
Issued Date                                               Completion
Contracting            1. FLRA management should                                     Open
Investigation Report   focus on creating and/or
August - 2004          updating policy for their
                       procurement operations and
                       providing this policy to
                       contracting employees so that
                       the subject employees are
                       properly informed of
                       changes. Contract file
                       information should be
                       standardized and submitted
                       proposals with documented
                       evaluations. Task order
                       written by FLRA managers
                       should include evaluation
                       criteria by which contractors
                       will be evaluated.

                       2. The FLRA Contracting                                       Open
                       Officer needs to understand
                       that , in spite of his authority
                       and independence to handle
                       claims and make final
                       decisions, FLRA
                       management should be
                       informed of contract related
                       problems and claims that
                       have been filed against the
                       Agency prior to processing,
                       especially when the
                       alternative dispute resolution
                       process is to be used.

                       3. FLRA management should                                     Open
                       focus more on human capital
                       and customer orient
                       relationships. Also FLRA




                                   37th Semi Annual Report
                                         Page 36 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.             Recommendation                    Target       Actual Date   Status
Issued Date                                              Completion
Contracting            management should be aware
Investigation Report   of and support appropriate
August – 2004          alternative dispute resolution
(continued)            for claims as they do for
                       unfair labor practice charges
                       and arbitration cases, which
                       provide greater satisfaction to
                       the filing party, innovative
                       methods of resolving disputes
                       and greater efficiency in
                       achieving settlements.

                       4. FLRA management should                                    Open
                       ensure that senior appointed
                       managers have knowledge
                       and/or are provided with
                       necessary training in the
                       program they are responsible
                       for managing.
FY 2004 Audit of       1. FLRA CIO develop and                                      Open
FLRA Security          maintain:
Programs
September 30, 2004          (a) A visitor log that all
                       data center visitors are
                       required to sign upon arrive
                       and departure.
                            (b) An emergency
                       contact line list.

                            (c) ASD develop
                       effective policies for
                       managing Kastle Keys and
                       direct ASD security personnel
                       to implement procedures in
                       accord with the policies
                       adopted.




                                   37th Semi Annual Report
                                         Page 37 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                   Target       Actual Date   Status
Issued Date                                            Completion
FY 2004 Audit of      2. FLRA CIO should:                                         Open
FLRA Security
Programs                  (a) Fully develop
September 30, 2004    disaster recovery, IT
Cont.                 contingency business
                      continuity, and continuity of
                      operations plans.

                           (b) Provide training to
                      enable personnel to
                      effectively implement all
                      plans and require periodic
                      retraining.

                           (c) After each plan is
                      implemented, conduct and
                      document testing to ensure
                      that each plan is responsive,
                      and periodically reevaluate
                      plans and keep plans current.

                      4. FLRA CIO should                                          Open
                      Perform a C&A review in
                      accordance with NIST
                      standards and authorizes the
                      general support system for
                      processing.

                      5. FLRA should ensure that a
                      management official                                         Open
                      authorizes in writing the use
                      of each general support
                      system based on an
                      acceptance of risks identified
                      with the system certification
                      process as described by
                      NIST.




                                 37th Semi Annual Report
                                       Page 38 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                  Target       Actual Date   Status
Issued Date                                           Completion

FY 2004 Audit of      6. FLRA should ensure that                                 Open
FLRA Security         staff members adhere to a
Programs              documented policies and
September 30, 2004    procedures for performing
Cont.                 backups of networks file and
                      mail servers.

                      7. FLRA CIO should:                                        Open

                          (a) Develop a program to
                      provide annual security
                      awareness training to all
                      FLRA employees in
                      accordance with OMB
                      requirements.
                          (b) Develop proper
                      procedures to accurately
                      assess and report on the
                      program’s level of attendance
                      and effectiveness.

                      8. FLRA CIO should                                         Open
                      develop a complete Security
                      Program Plan, arrange for
                      appropriate personnel to
                      review it, revise the plan
                      accordingly and obtain
                      approval cognizant executive
                      management.

                      9. FLRA CIO should                                         Open
                      develop, document and
                      implement an incident
                      response plan consistent with
                      NIST and OMB criteria.




                                 37th Semi Annual Report
                                       Page 39 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                   Target       Actual Date   Status
Issued Date                                            Completion
FY 2004 Audit of      10. FLRA should:                                            Open
FLRA Security
Programs                   (a) Take immediate
September 30, 2004    action ensure timely
Cont.                 development and
                      implementation of policies
                      and procedures necessary to
                      establish ad support FLRA’s
                      information security program.
                           (b) Develop and
                      implement policies and
                      procedures to track evaluate,
                      and monitor FLRA’s
                      information and information
                      systems security program in
                      accordance with OMB
                      Circular A-130, Appendix III
                      and ensure proper and timely
                      reporting to OMB and
                      Congress.

                      11. FLRA CIO should:                                        Open

                           (a) Develop policies and
                      procedures requiring that
                      patches be properly tested in
                      a test environment before
                      being placed into production.
                           (b) Develop a test lab to
                      adequately test patches.
                           (c) Provide training to
                      individuals to ensure that
                      multiple personnel can
                      perform critical functions and
                      activities can be performed
                      by multiple personal.




                                 37th Semi Annual Report
                                       Page 40 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                    Target       Actual Date   Status
Issued Date                                             Completion
FY 2004 Audit of      12. FLRA CIO should:                                         Open
FLRA Security
Programs                   (a) Develop and
September 30, 2004    implement a formal SDLC
Cont.                 methodology based on NIST
                      guidance and ensure the
                      policy at a minimum
                      addresses the following
                      elements:
                            - Sensitivity of data to
                      be processed in the system.
                            - Resources required
                      for adequately securing the
                      system.
                            - Input from the
                      equivalent of an Investment
                      Review Board.
                            - Authorization for
                      software modification
                      documentation and
                      maintenance.
                            - Budget request to
                      include security resources for
                      the system.
                            - Security controls
                      consistent with and integral to
                      senior management’s
                      standards.
                            - Security
                      requirements to be included
                      in solicitation documentation.




                                 37th Semi Annual Report
                                       Page 41 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                  Target       Actual Date   Status
Issued Date                                           Completion
FY 2004 Audit of            - Develop and                                        Open
FLRA Security         implement a formal change
Programs              control policy outlining the
September 30, 2004    procedures needed to ensure
Cont.                 that system configuration
                      changes are properly
                      documented, authorized,
                      approved, and tested before
                      being moved into production
                      or implemented.

                      13. FLRA Management                                        Open
                      should: suspend access or
                      implement adequate
                      procedures to mitigate risks
                      associated with CIO’s access
                      privileges to the network
                      domain servers and local
                      account passwords and follow
                      through with the Windows
                      2000 migration and rollout
                      initiatives to ensue that
                      current passwords that have
                      been compromised due to the
                      departure of the network
                      manager do not continue to
                      present the Agency with a
                      major security risk.

                      14. FLRA CIO should:                                       Open

                           (a) Develop policies and
                      procedures requiring periodic
                      review of user access
                      controlled.




                                 37th Semi Annual Report
                                       Page 42 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                   Target       Actual Date   Status
Issued Date                                            Completion
FY 2004 Audit of           (b) Analyze generic
FLRA Security         accounts currently active on
Programs              the network operating
September 30, 2004    system to ensure that they
Cont.                 are appropriate and that
                      account access are
                      controlled and monitored.

                      1. Management needs to                                      Open
                      focus on information
                      technology to improve
                      FLRA information
                      technology systems.
                      Management should review
                      previous IG Reports, which
                      contain information security
                      findings and
                      recommendations.

                      2. FLRA should obtain the                                   Open
                      proper testing material and
                      scan all FLRA
                      laptops/computers
                      throughout the Agency to
                      see if they contain improper
                      websites.

2005-I-04 Access of        (c) Management should
Improper Websites     reinstate technology as an
                      integral part of its strategic
                      plan.

                      4. Management should                                        Open
                      reinstate its sub component
                      Technology Committee
                      which could provide mission
                      related problems and
                      requirements to the FLRA
                      CIO.

                                 37th Semi Annual Report
                                       Page 43 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                Target       Actual Date   Status
Issued Date                                         Completion
2005 Financial        1. Executive management                                  Open
Statement             should start the agency
Recommendations       towards FISMA compliance
                      by providing support for
                      correcting the out-of-
                      compliance situation. This
                      support should consist of
                      memoranda, policy and
                      documented directions, but
                      also of financial and
                      budgetary resource
                      allocation for the goods,
                      services, and personnel
                      needs of the agency to
                      correct the situation. This
                      support, along with the
                      undertaking of corrective
                      actions by the Chief
                      information Officer and
                      other FLRA Staff, should be
                      focused on implementing
                      the recommendation is
                      provided to the FLRA from
                      the fiscal year 2004 FISMA
                      Audit Report.

                      2. Executive management                                  Open
                      should establish who is to
                      perform Chief Financial
                      Officer duties and
                      responsibilities for the
                      agency. This individual
                      should have the appropriate
                      knowledge and skills needed
                      for fulfilling all the
                      necessary duties and
                      responsibilities.


                                37th Semi Annual Report
                                      Page 44 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                   Target       Actual Date   Status
Issued Date                                            Completion
2005 Financial        3. Executive management                                     Open
Statement             should agency policies and
Recommendations       procedures are kept current
Cont.                 and in accordance with
                      existing laws and regulations.
                      This assurance would entail
                      monitoring existing policies
                      and procedures and
                      identifying those that are in
                      need of revision. For those
                      policies and procedures
                      submitted by agency directors
                      concerning changes needed
                      for adoption of the policy or
                      procedure by the agency.

                      4. FLRA should insure                                       Open
                      continuity of its operations
                      through having better support
                      providers and their services.

                      This support could be
                      provided in many different
                      ways, including obtaining
                      external system support
                      providers and their services.

                      As an interim measure, other
                      FLRA employees should be
                      given the appropriate training
                      and guidance to establish
                      adequate support for the
                      continued functions. This
                      would ensure that there is a




                                 37th Semi Annual Report
                                       Page 45 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                    Target       Actual Date   Status
Issued Date                                             Completion
2005 Financial        sufficient “backup knowledge
Statement             base” in other employees in
Recommendations       the event of a loss of a single
Cont.                 critical employee.

                      5. FLRA should determine                                     Open
                      the best system source for its
                      overall accounting,
                      budgetary, and financial need
                      on a going forward basis.
                      This may involve determining
                      other options available from
                      the U.S. Department of the
                      Interior as well as alternative
                      private sector or
                      governmental sources that
                      can efficiently meet FLRA’s
                      needs.

                      6. Detailed fixed assets                                     Open
                      records should be maintained
                      and reconciled to the general
                      ledger on a timely basis to
                      ensure accurate accounting
                      for assets. These records
                      should be timely and
                      appropriate updated each
                      period for asset additions and
                      subtractions resulting from
                      acquisitions, trade, disposals,
                      etc.




                                 37th Semi Annual Report
                                       Page 46 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                     Target       Actual Date   Status
Issued Date                                              Completion
2005 Financial        7. Management should                                          Open
Statement             address cash disbursement
Recommendations       procedures, accounts payable
Cont.                 procedures and internal
                      controls in its development of
                      an improved system of fiscal
                      and accounting management.
                      The process of accounts
                      payable should be core
                      function that is contained
                      within the accounting system.

                      8. The Executive Director
                      should examine the                                            Open
                      procurement process between
                      the Divisions of Budget and
                      Finance and Administrative
                      Services and ensure the
                      proper policies and
                      procedures are in place to
                      provide that FLRA
                      obligations are recorded into
                      the agency accounting
                      records into the agency
                      accounting records in an
                      accurate and timely manner.

                      In addition, the Executive
                      Director should ensure that
                      the policies and procedures
                      include adequate internal
                      control and monitoring

                      9. Information needed for                                     Open
                      each quarter closed should
                      include all necessary updated
                      information for fair statement
                      of the financial position of the
                      FLRA.

                                  37th Semi Annual Report
                                        Page 47 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                   Target       Actual Date   Status
Issued Date                                            Completion
2005 Financial        10. The process of updating                                 Open
Statement             the ability of accrued leave
Recommendations       should be conducted quarterly
Cont.                 in time for the fiscal quarter
                      accounting closed. This
                      updating should ensure fair
                      statement of the accrual by
                      obtaining accurate and
                      reliable data needed to
                      determine the accrual.

                      11. The process of updating                                 Open
                      the liabilities of accrued
                      FECA and Future Workers
                      Compensation should be
                      conducted quarterly in time
                      for the fiscal quarter
                      accounting closed. This
                      updating should ensure fair
                      statement of the accrual by
                      obtaining accurate and
                      reliable data needed to
                      determine the accrual.

                      12. Formal collection                                       Open
                      procedures should be
                      establish that included:
                           (a) The formal periodic
                      review of the account
                      receivable aged trial balance;
                           (b) The implementation
                      of procedures for contacting
                      delinquent accounts for
                      payment, such as sending
                      letters;




                                 37th Semi Annual Report
                                       Page 48 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.            Recommendation                     Target       Actual Date   Status
Issued Date                                              Completion
2005 Financial             (c) The formal periodic
Statement             review of the account
Recommendations       receivable aged trial balance;
Cont.                      (d) The implementation
                      of procedures for contacting
                      delinquent accounts for
                      payment, such as sending
                      letters;
                           (e) A quarterly
                      assessment concerning the
                      collectibles of the
                      receivables; and
                           (f) The determination of
                      allowance for doubtful
                      accounts.

                      13. The FLRA should ensure                                    Open
                      that the PAR is delivered by
                      the regulatory die date.

                      14. Lease agreements should                                   Open
                      be reviewed for existing
                      occupied and used spaces and
                      ensure each lease is accurate
                      and complete. Any omissions
                      should be addressed and
                      followed up with appropriate
                      written requests to the lesser.

                      15. In conjunction with the                                   Open
                      back up of key accounting
                      positions, procedures are
                      established for a review of
                      manual adjusting journal
                      entries prior to entering to the
                      system.




                                  37th Semi Annual Report
                                        Page 49 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2007

Report No.       Recommendation                        Target       Actual   Status
Issued Date                                            Completion   Date
2005 Financial   16. FLRA should address                                     Open
Statement        whether alternative summary
Recommendati     level information can be posted
ons              to the general ledger for the
Cont.            payroll interface. With summary
                 information by department, the
                 general ledger would be greatly
                 improved as a monitoring and
                 analysis tool for management.
2007             The Subject Denver Regional                                 Closed
Investigation    Office Investigator should be                               February
2007-I-01        counseled not to use non-                                   14, 2007
                 professional words (such as liar)
                 when talking to case participants
                 and focus on not using words
                 regarding the situation that are or
                 will be interpreted as improper
Internal         1.a. The FLRA Executive                                     Open
Review of        Director should immediately
FLRA             create a new instruction for
Administrative   creating FLRA administrative
Policy 2007      instructions.

                 1.b. The FLRA Executive
                 Director should immediately
                 review the cancelled policies and
                 have necessary replacement
                 policies issued as quickly as
                 possible.

                 1.c The FLRA Executive
                 Director should address the
                 review, update, and/or revision of
                 all FLRA administrative
                 instructions issued over 5-7 years
                 ago, especially those related to
                 Human Resources Contracting
                 Procurement and Financial
                 Statement/Budgeting/Accounting

                                   37th Semi Annual Report
                                         Page 50 of 55
Corrective Actions Status
Fiscal Year 2007

Report No.        Recommendation                        Target       Actual   Status
Issued Date                                             Completion   Date
Internal          1. d. When FLRA instructions are
Review of         cancelled or revised and new
FLRA              instructions are implemented and
Administrative    placed on (or removed from) the
Policy 2007       FLRA internet website, the FLRA
cont.             Executive Director or designated
                  employee should inform or e-mail
                  these occurrences to all FLRA
                  employees,
                  2. The FLRA Executive Director                              Open
                  should immediately review all
                  current instructions without
                  Executive Directors signature and
                  sign or attach a signature to all
                  instructions implemented during
                  the last 7 years that have not been
                  removed.
                  3. The FLRA Executive Director                              Open
                  should review the 6 listed
                  instructions that are on the FLRA
                  website and cancellation list. If
                  they are acceptable as current
                  policy, remove them from the
                  cancellations list. If they should
                  be cancelled, removed them from
                  the FLRA instruction website.
Investigation     1. Unfair labor practice case                               Open
2007-I-01         charge of official documents
                  compliance letters, settlement
                  agreements, case decisions or
                  closures, appeals, etc. that are
                  mailed would be sent by certified
                  mail to ensure that charged and
                  charging parties of the case filed
                  with the FLRA receive the
                  information.




                                   37th Semi Annual Report
                                         Page 51 of 55
                                            TABLE I

            INSPECTOR GENERAL AUDIT REPORTS WITH QUESTIONED COSTS
                                               NUMBER OF REPORTS    DOLLAR VALUE
A. For which no management decision has                  18
been made by the commencement of the              2005 Financial
reporting period.                                 Statement Audit
                                                 Corrective Actions
B. Which were issued during the reporting
                                                       None
period?
C. For which a management decision was
made during the reporting period.                      None
         (i) Dollar value of disallowed costs.            0              0

        (ii) Dollar value of costs not            The Chairman must          0
        disallowed.                                approve budget
                                                    expenditures.

D. For which no management decision has               18 previous
been made by the end of the reporting               2004 Financial           0
period.                                             Statement Audit
                                                   Corrective Actions

                                           TABLE II

INSPECTOR GENERAL AUDIT REPORTS WITH RECOMMENDATIONS THAT FUNDS BE
PUT TO BETTER USE
                                               NUMBER OF REPORTS          DOLLAR VALUE
A. For which no management decision has Reviewed as part of the FY
been made by the commencement of the           2006 Financial Statement
reporting period.                            Audit which was not issued
                                                prior to March 31, 2007.
B. Which were issued during the reporting
                                                          None
period?
C. For which a management decision was
                                                No response provided.
made during the reporting period.
        (i) Dollar value of
        recommendations that were
        agreed to by management.
        (ii) Dollar value of costs that were  No response to IG request
        not agreed to by management.          for funds for 2007 Security $85,000.
                                             Technology Audit provided.
D. For which no management decision has        2005 Financial Statement
been made by the end of the reporting                     Audit
period.                                      Findings/Recommendations




                                    37th Semi Annual Report
                                          Page 52 of 55
                      FEDERAL LABOR RELATIONS AUTHORITY
                            Office of the Inspector General
                            Oversight Activities Summary
                          October 1, 2005 – March 31, 2006

SUBJECT                                                       STATUS
Internal Review of FLRA Administrative Policy                  Completed
Administrative Investigations                                  Competed


2007-I-01 Investigation                                        Completed
2007-I-02 Investigation                                        Completed

2007-I-03 Investigation                                        Completed
2007-04-Investigation                                          Completed


                     FEDERAL LABOR RELATIONS AUTHORITY
                           Office of the Inspector General
                        CORRECTIVE ACTION SUMMARY
                         October 1, 2005 – March 31, 2006
New Corrective Actions                                            6

Open Corrective Actions Carried Over                             138

Total Actions Closed This Period                                      1


Total to be Carried Over                                         144




                                37th Semi Annual Report
                                      Page 53 of 55
Definitions

Actions

Completion by management of either all actions necessary to implement report
recommendations or a management decision that determines no action is necessary.

Funds Be Put To Better Use

The amount of savings estimated by the Inspector General that could be obtained by
implementing report recommendations relating to more efficiency and effectiveness of
programs and operations.

Management Decision

A final decision made by management in response to audit report recommendations
that may include actions concluded to be necessary or a determination that no action is
necessary.

Management Letter

This document brings to the attention of management any of a broad range of issues
and subjects which should be addressed by management, but do not require formal
audit or investigation. Management letters are generally unplanned and are issued to
report on situations found in conjunction with an on-going or completed audit or
investigation. These letters may also be used to expand on previously issued audit
report recommendations.

Questioned Costs

Expenditures questioned by the Inspector General are usually due to the following:

Unsupported costs, which involve inadequate documentation; Disallowed costs, which
involve an alleged violation concurred with by Managements Decision of a law,
regulation, grant, contract, or another agreement; or unnecessary costs which involve
unnecessary or wasteful spending.




                                37th Semi Annual Report
                                      Page 54 of 55
REPORT FRAUD, WASTE, ABUSE, AND MISMANAGEMENT

                          TO

    THE FEDERAL LABOR RELATIONS AUTHORITY

       OFFICE OF THE INSPECTOR GENERAL

                     HOTLINE

          1-800-331-3572 (24 hr. service)

                  202-218-7744

                     or write to

                        FLRA

            Office of Inspector General

                1400 K Street, NW

                     Suite 250

             Washington, D.C. 20424




                 37th Semi Annual Report
                       Page 55 of 55
